n

V

No. <£

!PI§111

__ .

y fa Sb?

In The

Supreme Court of The United States

supreme Court. US
FILED

APR 2 7 2021
OFFICE OF THE pi cpi/

Glen Plourde,
Petitioner
v.
STATE OF MAINE; DIRIGO COUNSELING CLINIC, LLC; MARIANNE LYNCH,
Penobscot County District Attorney; STEPHEN BURLOCK, Penobscot County
Assistant District Attorney; MEGANN HOLLAND, LCPC-C; ALAN ALGEE,
Clinical Director
Respondents

On Petition For Writ Of Certiorari To
The First Circuit Court of Appeals

PETITION FOR A WRIT OF CERTIORARI

Glen Plourde
455 Chapman Road
Newburgh, Maine 04444
207-659-2595

QUESTIONS PRESENTED
i. “Does the continual disenfranchisement of the Petitioner by The Federal Courts’, as
irrefutably evidenced in the Petitioner’s Federal Court Cases (including this case)
and associated appeals, violate the Petitioner’s Fifth Amendment Constitutional
Rights to Substantive or Procedural Due Process?” The Petitioner argues that it
does.
The Federal District Court of Maine has been abusing, among other procedural
mechanisms, 28 U.S.C. 1915(e)(2) in order to procedurally dismiss the indigent and
Pro Se Plaintiffs meritorious complaints against Maine State Government Employee
defendants sua sponte (usually by misquoting the Plaintiff and then invoking Denton
v. Hernandez) prior to service so that those guilty parties are never required to
provide answer in response to Plaintiffs verifiably accurate and well-evidenced
complaints. These abuses have been continually upheld by The First Circuit.
2. “Does the well-evidenced fact that the Federal District Court of Maine’s decision in
this case, and the First Circuit’s subsequent upholding of that decision, is in conflict
with multiple instances of United States Supreme Court case law designed to protect
Pro Se litigants from the type of abuse by The Courts noted in Question #1 mean that
the Federal Courts have abused their discretion?” The Petitioner argues that it does.
The United States Supreme Court has issued multiple instances of case law that
protect Pro Se litigants from both procedural and substantive Judicial Abuse(s) and
the Federal Courts’ actions and decisions have run afoul of that controlling case law.
3. “Does The Federal Courts’ continual and outright refusal to address the Petitioner’s
well-pled Fact that he has been Tortured by U.S. Government Personnel, and their
associated failure to assist the Petitioner in any way whatsoever, infringe upon the
Petitioner’s Human Rights, Constitutional and Civil Rights, or Rights conferred to
the Petitioner under United States and/or International Law?” The Petitioner
Argues that it does.
The United States Government and Federal Court System has failed to conduct any
investigation, or aid the Petitioner in any way, regarding his true, accurate, and
verifiable claims that he has been Tortured by U.S. Government Personnel. This non­
action by the Government is in conflict with The Petitioner’s basic Human Rights, his
Constitutional and Civil Rights, and both Federal and International Law.
The Petitioner notes that the Federal Courts have Jurisdiction over Torture (18
U.S.C. 113C) the issue of Torture as it is a Federal Crime as well as an International
Crime.

LIST OF PARTIES
[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Plourde v. State of Maine, et al, No. 20-CV-00137, U.S. District Court for the
District of Maine. Judgement entered 05/22/20.
Plourde v. State of Maine, et al, No. 20-1610, U.S. Court of Appeals for the First
Circuit. Judgement entered 02/23/21. Judgement on Petition for Rehearing entered
04/28/21.

TABLE OF CONTENTS

OPINIONS BELOW.

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE PETITION

12

CONCLUSION.

40

INDEX TO APPENDICIES

APPENDIX A

Decision, U.S. First Circuit Court of Appeals, 20-1610

APPENDIX B

Decision, U.S. District Court of Maine, 1:20-CV-00137-LEW

APPENDIX C

Decision RE: Petition for Rehearing, U.S. First Circuit, 20-1610

APPENDIX D

18 U.S.C. Chapter 113C - Torture

APPENDIX E

Geneva Conventions against Torture and Other Cruel, Inhuman
or Degrading Treatment or Punishment, Part 1

TABLE QF AUTHORITIES
Cases
1:20-CV-00137-LEW (US District of Maine)

4 - 12, 12 - 20, 20 - 25, 25 - 39

20 — 1610 (US First Circuit).........................

............12-20, 20-25, 25-39

20 - 1611 (US First Circuit).........................

............12-20, 20-25, 25-39

20 - 1777 (US First Circuit).........................

............12-20, 20-25, 25-39

20 - 2166 (US First Circuit)..........................

............12-20, 20-25, 25-39

Artuso v. Vertex Phorm Inc., 637 F.3d 1, 5 (1st Cir. 2011)..... 12 - 20, 20 - 25, 25 - 39
Denton v. Hernandez, 504 U.S. 25, 33 (1992)...........................

12 - 20, 20 - 25

DesRosiers v. Moran, 949 F.2d 15, 23 (1st Cir. 1991).............

12 -20, 20-25

Flores v. U.S. Atty. Gen., 2013 WL 1122719, at *2 (ME 2013)

12 - 20, 20 - 25

Golden v. Coleman, 429 Fed. App’x 73, 74 (3rd Cir. 2011)

12-20, 20-25

Haines v. Kerner, 404 U.S. 519, 520...........

12 - 20, 20 - 25, 25 - 39

Hughes v. Rowe, 449 U.S. 5, 10 n. 7 (1980)

.............. 12-20, 25-39

Instiiuto De Educacion Universal Corp. v. United States Dep't of Educ., 209 F.3d 18,

23 (1st Cir. 2000)

12 - 20, 20 - 25, 25 - 39

Johnson v. Rodruguez, 943 F.2d 104, 107 (1st Cir. 1991)

12 - 20, 20 - 25, 25 - 39

Neitzke v. Williams, 490 U.S. 319, 324 (1989)..................

............12-20, 20-25

State of Maine v; Glen Plourde, PENDC-CR-16-20309....

;4-12, 20-25, 25-39

Statutes and Rules
Fed. R. Civ. P. 72
18 U.S.C. 113C

12-20
....4-12,25-39

Other
Fourth Amendment to the Constitution

.4 - 12, 12 - 20, 20 - 25, 25 - 39

Fifth Amendment to the Constitution,

.4 - 12, 14 - 25, 26 - 34, 34 - 39

Eighth Amendment to the Constitution.

.4-12,14-25, 26-34, 34-39

Ninth Amendment to the Constitution..

4 - 12, 14 - 25, 26 - 34, 34 - 39

Fourteenth Amendment to the Constitution,

4 - 12, 14 - 25, 26 - 34, 34 - 39

u

The Geneva Conventions Against Torture and Other Cruel, Inhuman or Degrading
4 - 12, 14 - 25, 26 - 34, 34 - 39
Treatment or Punishment..

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below,
OPINIONS BELOW

1^1 For cases from federal courts:
The opinion of the United State® court of appeals appears at Appendix
the petition and is
'Zo-'IUIQ {US freest
or,
M reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
rnirr_-i. n ' r rn

r

‘ii" n" ■'lllin"

1

'■

to

^*

The opinion of the United States district court appeal® at Appendix
* the petition and is
EjQ reported at A.lA°..Z.cy 1P°1
__; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

6_. to

[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix____ to the petition and is
;or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
court
The opinion of the —
to the petition and is
appears at Appendix
[ J reported at___
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

001

JURISDICTION

Eyt For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was

02.

24

[ ] No petition for rehearing was timely filed in my case.
fyj A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: —_____ ? and a copy of the
Hitt
order denying rehearing appears at A;
(YS An extension of time to fie the petition for a writ of certiorari was granted
to and including__ ------------------- (date) on__ _____________ (date)
-in Application Nn -A......(o^ ut TJt
Q*r OrV
MF6 dU** -3 onfirf^i (s*t)
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
___________________ , mid a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to fie the petition to a writ of certiorari was granted
(date) on
(date) in
to and including _—
Application No. —A
The jurisdiction of this Court is invoked under 28 U. 3. C. § 1257(a).

002

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
i. The Fourth Amendment to the United States Constitution - The 26^:
of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause, supported by Oath or
affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.
2. The Fifth Amendment to the United States Constitution - No person
shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except in cases arising in the
land or naval forces, or in the Militia, when in actual service in time of War
or public danger; nor shall any person be subject for the same offence to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himseif, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation.
3. The Eighth Amendment to the United States Constitution - Excessive
bail shah not be required, nor excessive fines imposed, nor cruel and unusual
punishments inflicted.
4. The Ninth Amendment to the United States Constitution - The
enumeration in the Constitution, of certain rights, shall not be construed to
deny or disparage others retained by the people.
5. 18 USC Chapter 113C - Federal Torture Statutes. Included as Appendix
D due to length.
6. The Geneva Conventions against Torture and other Cruel, Inhuman,
or Degrading Treatment or Punishment, Part 1 - Adopted and opened
for signature, ratification and accession by General Assembly resolution
39/46 of 10 December 1984; entry into force 26 June 1987, in accordance with
article 27(1). Included as Appendix E due to length.

003

STATEMENT OF THE CASE
Petitioner was prosecuted in case PENDC-CR-16-20309 by defendants
Penobscot County (Me.) District Attorney Marianne Lynch (“DA Lynch”) and
Penobscot County (Me.) Assistant District Attorney Stephen Burlock (“ADA
Burlock”) on behalf of The State of Maine over the period of time spanning 06/10/16
- 04/26/17.
On or about 09/27/16 the Petitioner was made aware, by Attorney Philip
Mohlar Esq., the Petitioner’s attorney at that time, of a Plea agreement that DA
Lynch was willing to offer the Petitioner, that being that the Petitioner agree to a
PFA order concerning his father, and that the Petitioner agree to attend some
counseling sessions, the exact details of which were unclear and thus the Petitioner
could take no proactive action regarding those counseling sessions until more
details were received at the next hearing date.
On 10/31/16 Philip Mohlar resigned as the Petitioner’s counsel and thus the
Petitioner was left to represent himself Pro Se.
On or about 11/02/16 the Petitioner agreed to a 2-year PFA order with his
father in case NEWDC-PA-16-00103. That order disallowed any and all contact
between Petitioner and his father whatsoever. Petitioner’s father appeared under
duress during that hearing despite him receiving the PFA he apparently wanted.
On or about 11/02/16 the Petitioner filed a 6-page document with Maine State
Senator Susan Collins, Maine State Senator Angus King, The Maine Human Rights
Commission, and The Maine State District Attorney’s Office describing the fact that

004

he had been Tortured during his 2012 — 2013 Employment at United Technologies
Hamilton Sundstrand (as a CDI Aerospace contractor) and asking for their
assistance with this matter.
The morning of the 11/30/16 PENDC-CR-16-20309 hearing, the Petitioner
met with DA Lynch “off the record” in her office and related some of details of the
Torture he had been the victim of to her, as well as supplied her with a copy of the
11/02/16 paper he had written and distributed to The Maine State Government
Offices, including the Maine State District Attorney’s Office, described above.
Later during that 11/30/16 hearing a plea agreement was reached between
the Petitioner and DA Lynch, in which the Petitioner agreed to attend in good-faith
four “family counseling” sessions, after which time DA Lynch would dismiss the
case PENDC-CR-16-20309 (complaint, exhibit A).
However, DA Lynch was rather imprecise and exceedingly cagey in her
“success criteria” for this counseling and reserved the right to find it inadequate for
any reason. This vague stipulation was supported and enforced by the presiding
Judge, Judge Charles Budd of Newport District Court. DA Lynch also continually
insisted that the Petitioner see a “family counselor” from “The State Forensic
Services Team” or “Acadia Hospital” (complaint, exhibits A, C, S), both agencies the
Petitioner found unpalatable as “The State Forensic Services Team” works for The
State of Maine, who was prosecuting the Petitioner in this case, and the Petitioner
therefore felt there thus existed a conflict of interest and that a more impartial
“family counselor” would be appropriate. Furthermore, the Petitioner has had a

005

terrifically horrible experience at Acadia Hospital prior to the 11/30/16 hearing, as
is recounted in l:20-CV-00043-JAW and 20-2166 (First Circuit) and will be heading
to the United States Supreme Court within the next few months.
DA Lynch continually asked Judge Charles Budd to Order a Title 15 Forensic
Examination of the Petitioner (i.e. a “Mental Competency Examination” leading to
“guilty by reason of insanity’) during the 11/30/16 hearing, in what appeared to be
an attempt to remove or modify the plea agreement she had agreed to (complaint,
exhibits C, S). Whether Judge Budd actually ordered a Title 15 Forensic
Examination of the Petitioner or not is unclear and in dispute as Judge Budd has
contradicted himself by stating during the 11/30/16 hearing both that he was
ordering a Title 15 Forensic Examination and that he was not ordering a Title 15
Forensic Examination of the Petitioner (complaint, exhibit D).
Due to a series of highly unfortunate events that include, but are not limited
to, an inability to locate a “family counselor” in the Petitioner’s immediate area,
destruction of the Petitioner’s vehicle in a traffic accident on or about 12/23/16, a
subsequent hospitalization, Petitioner’s apartment literally being “condemned” by
the town of Skowhegan (his town of residence at that time) while he was in the
hospital and his associated and necessary search for a new apartment when he left
the hospital, and lack of financial resources with which to purchase a new vehicle,
the Petitioner was unable to attend any “family counseling” sessions prior to the
next hearing date of 03/22/17.

006

ADA Burlock was present on behalf of DA Lynch for the 03/22/17 hearing.
ADA Burlock asked for the results of the Title 15 Forensic Evaluation and there
was confusion among both ADA Burlock and Judge Charles Budd as to whether or
not one had actually been ordered (complaint, exhibit D).
Additionally, ADA Burlock claimed to have DA Lynch’s notes which he
claimed stated that a Title 15 Forensic Examination had been ordered and made no
mention of any Plea Agreement whatsoever (complaint, exhibit D).
Furthermore, Judge Budd denied being the Judge at the 11/30/16 hearing
(although he clearly was) and instead implicated Maine State Superior Court
Justice William Anderson as having been the presiding Judge (and/or ordering the
Title 15 Forensic Evaluation) at the 11/30/16 hearing (complaint, exhibit D).
ADA Burlock said his notes reflected the fact that Judge Budd was the
presiding Judge at the 11/30/16 hearing, although when it was denied by Judge
Budd, ADA Burlock quickly did an about-face and said that his notes did in-fact
indicate that it was Maine State Superior Court Justice William Anderson
presiding over the 11/30/16 hearing (and possibly ordering a Title 15 Forensic
Examination of the Petitioner) (complaint, exhibit D).
The 03/22/17 hearing was then continued to 04/26/17 to allow for “the
confusion” as described above to be settled. ADA Burlock was to speak with DA
Lynch regarding the 11/30/16 “unknown Plea Agreement” not contained in her
notes (complaint, exhibit D).

007

The Petitioner immediately recognized that he was being subject to nefarious
activity as it is impossible to believe that the Penobscot County District Attorney’s
Office is incompetent such that DA Lynch’s notes did not contain any mention of
any plea agreement reached on 11/30/16, and stated only that a Title 15 Forensic
Evaluation of the Petitioner had been ordered (the truth of which is still
questionable) (complaint, exhibit A). It is also impossible to believe that The
Newport District Court is incompetent to the extent that it had “mistaken” the
presiding Judge at the 11/30/16 hearing as Justice William Anderson, as Judge
Budd stated the courts’ notes said (complaint, exhibit D). Furthermore, Petitioner
finds it impossible to believe that Judge Budd’s own notes stated that Justice
William Anderson was the presiding judge on 11/30/16, as Judge Budd said they did
(complaint, exhibit D), as clearly Judge Budd was the presiding Judge as is evident
from the Official 11/30/16 hearing transcripts, both audio and written (complaint,
exhibit D). Finally, the Petitioner found it highly suspicious that ADA Burlock
indicated that DA Lynch’s notes properly identified Judge Budd as the presiding
Judge on 11/30/16, although after Judge Budd denied that fact, ADA Burlock
immediately did an about-face and agreed with Judge Budd that DA Lynch’s notes
did in-fact identify Maine State Superior Court Justice William Anderson as the
presiding judge during the 11/30/16 hearing (complaint, exhibit D).
It was apparent to the Petitioner that The Court and the Prosecution was
taking the Petitioner for a spin, and their spin did not include an automobile
although it did carry the potential for Jail Time.

008

None of the above Case Background is in dispute, it is Public Knowledge,
and it is readily verifiable by inspection of both the 11/30/16 and 03/22/17 PENDCCR-16-20309 Trial Transcripts included in exhibit to the Plaintiffs complaint.
The Petitioner was justifiably alarmed by this nefarious behavior and
immediately ordered both the audio and written transcripts of both the 11/30/16
and 03/22/17 hearings in order to prove both that there was an agreed-upon plea
agreement in place with DA Lynch and that Judge Budd was in fact the presiding
judge on 11/30/16, not Maine State Superior Court Justice Anderson.
Concurrently, the Petitioner attempted to find a “family counselor” in order
to meet his agreed-upon obligation to DA Lynch (despite ADA Burlock not
recognizing it as described above). The only “family counselor” available to meet
with him in time for his 04/26/17 hearing (and the Petitioner called every single
counselor in his Bangor Maine regional phonebook prior) was DIRIGO Counseling
Clinic LLC (complaint, exhibit B).
Petitioner called DIRIGO last as “DIRIGO” is the Maine State Motto, is
featured on both the Maine State Flag and Maine State Seal, and therefore
seemingly implies a connection with The State of Maine, who was seeking to secure
jail time for or at least a finding of insanity against the Petitioner at that time as
described above. As ADA Lynch was arguing during the 11/30/16 hearing that the
Petitioner should meet with someone from “The State Forensic Services Team”, this
fact made the Petitioner highly uncomfortable meeting with “DIRIGO” (complaint,
exhibits C, S).

009

The Petitioner’s meetings with “DIRIGO” and Megann Holland was an
unmitigated disaster in which Megann Holland admitted dining the second “family
counseling” session that she was not there to provide “family counseling” but it was
instead her job to provide a “Psychiatric Diagnosis” of the Petitioner (i.e. a Title 15
Forensic Examination, as requested by DA Lynch and perhaps ordered by Judge
Budd, aka “Justice Anderson” as described above) (complaint, exhibit R). The
Petitioner notes that this is exactly what DA Lynch wanted (complaint, exhibits C,
S) and ADA Burlock stated that Judge Budd (and then Justice Anderson) had
ordered on 11/30/16 (complaint, exhibit D).
Furthermore, the Petitioner was subject to deceptive, illegal and abusive
behavior by Megann Holland during both the first and second “family counseling
sessions” (complaint, exhibits M, O, R, V, W). When the Petitioner arrived for his
third session, he found “DIRIGO” to be completely empty, locked, and Megann
Holland was nowhere to be found (complaint, f 87).
Petitioner immediately called DIRIGO’s Clinical Director Alan Algee and was
informed that Megann Holland would not be attending that day. Apparently, she
had sent the Petitioner a letter stating as much although Alan Algee confirmed it
was sent to the wrong address (complaint, K88 - 93).
So ended the Petitioner’s relationship with DIRIGO Counseling Clinic LLC,
but not before the Petitioner had filled out a release form and indicated that he was
required by law to review any and all information from DIRIGO prior to its
disclosure to DA Lynch (complaint, exhibit X).

010

On 04/26/17 the Petitioner was met by DA Lynch, prior to the start of court,
and was handed a dismissal that indicated PENDC-CR-16-20309 had been
dismissed by The State of Maine because “[Petitioner] had complied with mental
health counseling”, despite the fact that the Petitioner had only fulfilled half (2 of 4
“family counseling sessions”) of that agreement (complaint, exhibit CC), and his
interactions with Megann Holland and DIRIGO could in no way have been
misconstrued as “mental health” or “family counseling” sessions; they were more of
a “trial by fire” or an attempt to goad the Petitioner into a physical altercation in
which the Petitioner was not only continually abused but at one point during the
second “session” was physically assaulted with a weapon by Megann Holland
(“complaint”, exhibits M, O, R, V, W).
Furthermore, the Petitioner notes that DA Lynch should have had no way of
knowing that the Petitioner had received any “counseling” whatsoever (the
agreement was for “family counseling’' although DA Lynch has noted “Mental
Health Counseling” in the dismissal), as the Petitioner was never given the
opportunity to inspect the information disclosed to DA Lynch as was his lawful
right pursuant to the way he had completed his authorization for release of medical
information from DIRIGO Counseling Clinic LLC to DA Lynch (complaint, H1110 111, exhibits X, CC).
The Petitioner’s experience with DIRIGO Counseling Clinic LLC, Megann
Holland, Alan Algee, and subsequent experience with DA Lynch are thoroughly

011

discussed in Plaintiffs complaint (KU13 - 111) and the associated exhibits
referenced therein and contained in the Plaintiffs complaint.
Judge Lance E. Walker of the District Court of Maine dismissed the
Petitioner’s complaint 1:20-CV-00137-LEW less than a month after petitioner had
filed it, prior to service, on 05/22/20, stating inter alia that the well-pled and wellevidenced facts of the Plaintiff s complaint “cannot reasonably be construed to
assert a substantial federal claim”, despite the fact that many of the counts were
levied at DA Lynch who is undeniably a State Actor and much of the evidence came
from the PENDC-CR-16-20309 docket itself.
Petitioner appealed to the U.S. Court of Appeals for the First Circuit, who
upheld Judge Walker’s dismissal on 02/23/21 and denied rehearing on 04/28/21.
REASONS FOR GRANTING THE WRIT
1. The objectively verifiable Continual and Intentional Abuse and
Disenfranchisement of the Pro Se Petitioner by The Federal Courts
is illegal, unacceptable, and is a violation of the Petitioner’s Fifth
Amendment Right to Due Process (Procedural and Substantive), in
addition to other Constitutional Rights conferred to him. The
Continual and Intentional Abuse and Disenfranchisement of an
unrepresented Pro Se Litigant is of exceptional importance to The
United States Supreme Court as it has bearing on every Pro Se
Litigant in the Federal Court.
The District Court of Maine has a verifiable history of not treating the
Plaintiff fairly, impartially, or in accordance with fact (“abuse” and/or
“disenfranchisement”), and this case is no exception. The U.S. First Circuit Court of
Appeals has remained silent on these abuses although the Plaintiff has brought

012

them to their attention in each of his appeals1, including this case on review for
petition for certiorari, 20-1610 (Ref. “First Circuit Court of Appeals Appellants
Brief 20-1611” pages 12 - 31, “Motion for Court-Appointed Attorney” 11/27/20 Uf2,
3, 4; “Second Motion for Court-Appointed Attorney” 12/08/20 Kf 2, 3, 4, 5, 8, 9).
This abuse and disenfranchisement has taken the forms of the following,
although this list is by no means all-inclusive.
Most distressing is that the The Federal District Court of Maine commonly
mischaracterizes the indigent Pro Se Plaintiffs statements and/or complaints in a
most inaccurate and unflattering way within their Orders, Opinions, Recommended
Decisions, and Decisions that are publicly published and available on the internet.
However, the indigent Pro Se Plaintiffs responses (and corrections of the record) to
these unflattering and biased mischaracterizations are unpublished and not
available on the internet and thus the Plaintiff is continually and publicly
mischaracterized, defamed and/or libeled by The Federal District Court of Maine,
an unacceptable and illegal action for which the Plaintiff has no recourse. This type
of abuse has happened in every single case the Plaintiff has filed in federal district
court. The Plaintiff is page-limited in this Petition to The Honorable Court and
thus cannot cite every single instance where this has occurred, as they are copious
in quantity, although he can certainly cite objective and verifiable evidence that this
has happened and is continuing to happen for This Honorable Court’s review (Ref.
“Orders” and “Recommended Decisions” and compare them with the Plaintiffs

1 U.S. Appeals 20-1610, 20-1611, 20-1777, 20-2166 (FirQ^uit).

, • • f.

i

\
s

fi

••'t,

r

•;v, i

•>

*

■/.

>. i

■/

■.

./

I

t,

e

HO

J

!.

i ii

!• i

*yi -

i

7

i

-i’

'.AT

^*

i
J

■i

\

+_

* *.

O

i

i "

:

i\r /
nr

X

/
t

,.•..77

V*H>;

r7 l {

!.

7

PU

J

i

i

;•*
••I..

i

4

i

:

f:!

I-'

>

,7,

i

•a

f

I

:

s

.

f

'

•-,1

T

V

i

:.*iV

/
•7

j

if <

*

!

4

•

.*

3 A.U*3

\± >

\

,*
i

f»

a

ij

V-?'

v!
i .-q- *.

>

v. i

?

r

* /

■5'

r

*A

!

7

■ t

t

i •.

!

<v

j

;

f--.

i

*,

i•

1

't

j

> ■'

i

inli.

L-

!

u

■

/

;

r

•» j.

>

v>

ri

:

/* (•

r

t

f

*i

>

j.

>-

'}

<n

/

.
£•

t i »-x*v«

■ {

;

.!■/

;-r

>

fl

J.

\

!«)

£. !

v

.

1

,W

«•

. » i

!

j-

<•

i.

1

■ i •

*

i.!

L

i

i

4

J

•>

J

^

t)

’

r :-J f.

>

i

vn.

j -

.

■,

,

:f.u

b ' .*

t

V-.1

V **

f
j

•r

J1

. •.

1

actual filings in l:19-CV-00486-JAW; 2:19-CV-00532-JAW; 1:20-CV-00011-JAW;
l:20-CV-00043-JAW; 1:20-CV-00137-LEW; 1:20-CV-00137-LEW).
The Plaintiff has alerted The First Circuit Court of Appeals to this fact in
every one of his appeals to that court, and has provided that court with the specific
examples of The District Court’s (Me.) mischaracterizations of the Plaintiffs
pleadings, including this case.2 3 4 5 The First Circuit Court of Appeals has refused
to respond in any way or put a stop to the common, inaccurate, and particularly
unflattering mischaracterizations of the indigent and Pro Se Petitioner’s pleadings
that he has alerted them to.
The Plaintiff finds it logical to believe that The Magistrate Judge and Judges
of the Federal District Court (Me.) are intelligent and thus finds it to be a
reasonable inference that these highly-unfiattering mischaracterizations of the
Plaintiffs pleadings are intentional and conducted in bad-faith, particularly as the
Pro Se Plaintiff is unschooled as an attorney and thus his pleadings are generally
common-sen8ical and easily-readable by a layman.
Most unsettling is the Fact that the district court (Me.) often makes the
particularly inaccurate and unflattering mischaracterizations cited above and then
uses these improper and inaccurate mischaracterizations to support their assertions

2 Ref. "First Circuit Court of Appeals Appellants Brief 20-1610" pages 12-32; "Motion for Court-Appointed
Attorney" 11/27/20 1W2,3,4; "Second Motion for Court-Appointed Attorney" 12/08/20 HH2, 3,4,5,8, 9.
3 Ref. "First Circuit Court of Appeals Appellants Brief 20-1611" pages 32 - 39, "Motion for Court-Appointed
Attorney" 11/27/20 HH2, 3/4; "Second Motion for Court-Appointed Attorney" 12/08/201M2, 3/4,5,8,9.
4 Ref. "First Circuit Court of Appeals Appellants Brief 20-1777" pages 27 - 44,47 - 48; "Motion for CourtAppointed Attorney" 11/27/2011112,3,4; "Second Motion for Court-Appointed Attorney" 12/08/2011112, 3, 4, 5, 8,
9.

5 Ref. "First Circuit Court of Appeals Petitioners Brief 20-2166" pages 41 - 48; "Motion for Court-Appointed
Attorney" 12/31/20" 1112, 3,4, 5,8,9

014

(*

I .

;

s

f

* !
•7

i

n

>

■>

s

■ !

I

»

■V

*

}

1

J

I

j

•

j.

!

■;

t

. *•

■ •

-T

*
>:

A

; :

i-

x:

v

jf’-

i <

f

j

\

}

r*

*.

•?.*

1

i ,-r

T

t

1

}

n

* <

■> t

- .
"

j

u

r

,i t

I

/

i l

i

’i

;7

•j

•<.;

1

i

V

i

i

**•

i.«

L

1 •«',

•> -»

t

i-

*•

i

t

ii

I.V/

,

? •

;

u

t

j

r

*•

1

■\

X
\v-

t. : \?**r
f

t

l'

•• . *,

\r

V.v
J

1 '

r -

■S'

V

' y-'.

*■?'

:

y:

I

i

)

A

:r.

f.1

i

■X

•*«
4*.

that the Plaintiff s pleadings “Golden-like” (Golden v. Coleman, 429 Fed. App’x 73,
74 (3rd Cir. 2011), ‘Flores-like” (Flores v. U.S. Atty. Gen., No. 2:13-CV-00053-DBH
2013 WL 1122719, at *2 (D. Me. Feb. 26, 2013) and 2:13-CV-53-DBH, 2013 WL
1122635 (D. Me. Mar. 18, 2013), or “Denton-like” (Denton v. Hernandez, 504 U.S.
25, 33 (1992). Like the associated unflattering mischaracterizations of the
Petitioner’s pleadings as cited above, this has happened in every single case the
Plaintiff has filed in the federal district court of Maine,6 and the Plaintiff has
alerted The Honorable First Circuit Court of Appeals to this fact (Ref. First Circuit
citations above).
Alarmingly, the district court (Me.), pursuant to their mischaracterizations of
the Plaintiffs complaint(s) and subsequent findings based on those
mischaracterizations as discussed above, has warned the Plaintiff that “fifing
restrictions are in the offing” pursuant to Cok v. Family Court of Rhode Island, 985
F.2d 32, 35 (1st Cir. 1993) by Judge Lance E. Walker of The Federal District Court
of Maine in both of his published decisions, including this case (Appendix B).7
This has had a chilling effect on the indigent Pro Se Plaintiffs Right to Equal
Access to and Protection under the Law, Access to The Court, and willingness to file
additional True and Accurate Complaints in The Federal District Court as he is
justifiably afraid fifing restrictions will be unjustly imposed as described above if he
files additional complaint(s) in The Federal District Court.

®¥?ef. "Orders" and "Recommended Decisions" and compare them with the Plaintiff's actual filings in 1:19-CV00486-JAW; 2:19-CV-00532-JAW; 1:20-CV-00011-JAW; l:20-CV-00043-JAW; 1:20-CV-G0137-LEW; 1:20-CV-00137LEW,
7 Ref. "Decisions" in 1:20-CV-00137-LEW and l:20-CV-0g^gj-LEW.

However, the Statute of Limitations does not toll despite the chilling effect
the indigent and Pro Se Plaintiff has experienced from the district court, and thus
the Plaintiff finds that he has been the victim of “fundamental unfairness impinging
on his due process rights”, pursuant to DesRosiers v. Moran, 949 F.2d 15, 23 (1st
Cir. 1991). The Plaintiff has alerted The Honorable First Circuit Court of Appeals
to this fact (Ref. First Circuit appeals cited above).
In yet another slight to the Plaintiff, the district court has issued a
recommended decision(s) and has invited the Plaintiff to file an objection^)
pursuant to Fed. R. Civ. P. 72 in case 2:19-CV-00532-JAW. The unschooled and Pro
Se Plaintiff has then spent his time and energy composing such objection, only to
find that an Order issued prior to the time allowed by Fed. R. Civ. P. 72 to file such
objection had elapsed (14 days) and the Pro Se Plaintiff has therefore misspent his
time on composing that objection, although that time would not have been misspent
had the District Court of Maine simply waited the 14 days to give the Petitioner
opportunity to file such objection as Fed. R. Civ. P. 72 states the Plaintiff is allowed.
This situation has happened in at least case 2:19-CV-00532-JAW, as that docket
record will reflect, and a similar situation has occurred in case l:2Q-CV-00043-JAW.
This is as ridiculous as it is unfair, and is additional evidence that the district
court has a less-than-impartial view of the Plaintiff, if not evidence of direct
disenfranchisement itself.
A similar situation has occurred in case l:20-CV-00043-JAW (appealed as
20-2166) where the Plaintiff has filed an initial complaint on 02/07/20 (Ref. 1:20-

016

CV-00043-JAW, “Complaint”, 02/07/20), has noted within that complaint that he is
aware that it needed amendment and would amend his complaint pursuant to Fed.
R. Civ. P. 15 in the 20-days’ time afforded to him by that Ride, and instead of
waiting the usual 60 days or so to respond to the Plaintiffs initial filing (Ref. 1:19CV-00486-JAW; l:19-CV-00532-JAW; 1:20-CV-00011-JAW), the district court has
seized the opportunity to prevent the Plaintiff from amending his complaint “once as
a matter of course” within 20 days of filing pursuant to Fed. R. Civ. P. 15 by
responding to it in exactly 6 days’ time, which is approodmately 1/10 of the time it
has taken for response (approximately 60 days) in all of the other Plaintiffs Pro Se
cases referenced above (Ref. l:20-CV-00043-JAW, “Recommended Decision”,
02/13/20).
Not only was this exceedingly timely review unnecessary, as the Plaintiff had
already stated to the district eourt in his complaint that it required amendment and
would be amended “once as a matter of course” pursuant to Fed. R. Civ. P. 15, but
this eocceedingly timely review was completely unhelpful as it only reiterated the
deficiencies in the Plaintiffs complaint the Plaintiff had already identified himself
within his own complaint for amendment (Ref. “Complaint”, 02/07/20, til;
“Recommended Decision”, 02/13/20).
Clearly this exceedingly timely review was performed in much less time
(approximately 1/10 the time) of the other complaints the Plaintiff has filed as noted
above, and the only logical reason for it, that the Plaintiff can deduce, was to
procedurally rob the Plaintiff (Procedural and/or Substantive Due Process

017

infringement) of a chance to amend his complaint “once as a matter of course”
within 20-days pursuant to Fed. R. Civ. P. 15, which was exactly the Plaintiffs
intention as stated within that complaint itself (Rei. l:19-CV-00043-JAW,
“Complaint”, 02/07/20, fll).
Subsequently, the Plaintiff was given one and only one opportunity to amend
his complaint before Judge Woodcock acted on Magistrate Nivison’s 02/13/20
Recommended Decision and dismissed the Plaintiffs complaint 9 months later on
11/12/20. The Plaintiff finds the fact that he was given one and only one
opportunity to amend his complaint^ and that being pursuant to a recommended
decision that only identified deficiencies already identified by the Plaintiff himself in
his initial complaint, to be a clearly unfair, unjust, and improper way to treat an
indigent Pro Se Plaintiff and his complaint. Thus the Plaintiff again asserts his
Fifth Amendment Procedural and Substantive Due Process Rights are being
infringed upon by the district court (Me.).
Again, the Plaintiff understands that this situation is perhaps not as
grievous as the previous examples he has cited, which rise to the level of unlawful
behavior, in his humble opinion, although the Plaintiff rightfully finds that it is
additional evidence that the district court has a less-than-impartial view of the
Plaintiff and has treated him less-than-impartially.
The Plaintiff would like The Honorable Court to take note of this situation
and these particular situations as cited in this argument and respond accordingly.

018

Furthermore, the Plaintiff has filed Motions for a Court-Appointed Attorney
pursuant to 28 U.S.C. 1915(e)(1) in this case under review and his other cases
before The First Circuit Court of Appeals and cites the above behavior by the
district court, some of it criminal, as evidence that an attorney is required by the
indigent and Pro Se Plaintiff as he is experiencing “fundamental unfairness
impinging on his due process rights” by the district court of Maine, pursuant to
DesRosiers v. Moran, 949 F.2d 15, 23 (1st Cir. 1991) that he has neither the legal
wherewithal to handle himself nor a visible path to redress.
The Petitioner cannot find any logical explanation for this verifiably wrong
behavior perpetrated upon the Petitioner by the district court of Maine as evidenced
and cited in this argument, except perhaps for the fact that the Plaintiff has
properly alleged he has been Tortured by United States Federal Employees (and he
has) and perhaps the Federal Courts are seeking to discredit him on the public
record. This is not a Denton-like statement, it is a logical deduction - as noted in
Argument #1, the Petitioner has made copious amounts of State and Federal
Agencies aware of the Fact that he has been tortured, including the Courts, and not
a single agency or Court has offered any assistance or response whatsoever.
The continual and intentional abuse and disenfranchisement of an indigent
Pro Se litigant, as described within this argument, is not Constitutional pursuant to
Fifth Amendment Due Process nor is it lawful and it indeed results in “fundamental
unfairness impinging on due process rights”. The Honorable United States
Supreme Court should have an active and healthy interest in ensuring that the

019

Justice System works fairly, justly, and properly for everyone in this country (Lady
Justice wears a blindfold for a reason), even the least among us such as indigent
and thus necessarily Pro Se litigants', and therefore certiorari should be granted.
2. The District Court of Maine has abused its discretion by improperly
dismissing the Pro Se Plaintiffs complaint sua sponte and prior to
service on any defendant, and that decision conflicts with InPractice Case Law codified by the United States Supreme Court, as
well as the Fifth Amendment to the United States Constitution,
which are designed to prevent abuses such as this.
The Petitioner’s complaint was dismissed, in substance, for “[not] asserting]
a substantial Federal Claim” (Ref. Appendix B).
The basis for this conclusion was, in essence, that it was the opinion of Judge
Walker of the district court (Me.) that the Plaintiffs complaint was “absolutely
devoid of merit”, “wholly insubstantial”, “obviously frivolous”, “plainly
insubstantial”, “no longer open to discussion”, “essentially fictitious”, and “obviously
without merit” (Ref. Appendix B).
However, as the Petitioner has described in the “Statement of the Case”, the
Petitioner’s complaint (1:20-CV-00137-LEW) was none of those things.
The Petitioner’s complaint cannot rightfully be called any of those things
cited in the district court’s opinion, as the Facts of the Case are well-documented
and well-evidenced both in the Petitioner’s complaint and The Trial Court’s own
documentation, including the written and certified transcripts and docket
materials, of which the Plaintiff has included as exhibits to his complaint in order to
evidence his case (Ref. “Complaint”, 1:20-CV-00137-JAW).

020

Unless it is the position of Judge Walker that the Waterville District Court’s
Record of case PENDC-CR-16-20309 is “absolutely devoid of merit”, “wholly
insubstantial”, “obviously frivolous”, “plainly insubstantial”, “no longer open to
discussion”, “essentially fictitious”, and “obviously without merit”, then the district
court’s opinion is unfounded and uncredible as the Petitioner has written his
complaint and has based and evidenced it on the verifiable case record that exists for
case PENDC-CR-16-20309, and as discussed above the Petitioner has added the
salient docket record documents, including the certified transcripts, as exhibits to
his complaint in support of the facts of his complaint (Ref. “Complaint”, all;
PENDC-CR-16-20309 docket, all).
There is clearly a credibility gap here that becomes apparent when the facts
of case PENDC-CR-16-20309, as recorded in the docket files, are compared with the
facts evidenced by the docket record files of case PENDC-CR-16-20309 included in
exhibit to the Petitioner’s complaint, and the credibility is not in the district court of
Maine’s favor or in favor of the defendants in this case.
The Plaintiff understands that he has caught some of the defendants’ “redhanded”, so to speak, as the facts of PENDC-CR-16-20309 as recorded in the docket
files match the Petitioner’s complaint and are indisputable. Although there are
indeed some defendants who are a party to this complaint who would probably
rather not be caught and called out in a Federal Court complaint, the fact remains
that Lady Justice wears a blindfold for a reason and these people are not above
reproach.

021

In this case, Judge Walker of the district court of Maine has removed the
blindfold and spared these defendants even the necessity of providing answer to
factually-evidenced allegations by inappropriately dismissing the Plaintiffs entire
complaint sua sponte. The sua sponte dismissal of every single count was clearly
inappropriate because the Plaintiffs complaint matches the verifiable and
indisputable facts of the case, and in many instances includes the docket record files
as exhibits to prove the facts of the Plaintiffs complaint, as discussed above.
The Petitioner notes that only one count of his complaint needs to be found
meritorious in order for his ease to proceed. Judge Walker and the district court of
Maine have completely quashed all “after-action” discussion whatsoever of PENDCCR-16-20309 by inappropriately dismissing 1:20-CV-00137-LEW sua sponte prior to
service upon any defendant, and has disenfranchised the Petitioner by doing so.
Judge Walker and the district court of Maine’s opinion is in conflict with
existing and in-use case law. The Petitioner is indigent and Pro Se and cannot find
an attorney to represent him (probably due to the Fact that he has been Tortured by
United States Government Personnel and the Government obviously doesn’t care to
see his complaints against the Government become successful), but he has found a
few case citations which support his contentions, and he is quite sure that The
Honorable United States Supreme Court knows a few more.
The United States Supreme Court has held that:
[A Pro Se Plaintiffs complaint is subject to] “less stringent standards than
formal pleadings drafted by lawyers” (Haines i/. Kerner, 404 U.S. 519, 520).

022

The Petitioner is not alleging that there is anything wrong with his
complaint, in-fact he is stating the exact opposite, and using the existing and
indisputable case files in NEWDC-CR-16-20309 to prove his case, as inspection of
his complaint will reveal (Ref. “Complaint”, all; NEWDC-CR-16-20309, all).
The Pro Se Petitioner however does recognize that perhaps some counts were
excessive. In particular, some of those counts were predicated on criminal statutes
and, had the indigent and Pro S& Petitioner known at that time, should not have
been included in the complaint. Haines affords the Pro Se Petitioner small
mistakes such as this, and the fact that some counts may have been fruitless or not
prosecutable by the Plaintiff does not make the remaining counts “fiivolous” or
“devoid of merit”. Each count should be evaluated on its own merits, as The
Honorable Court knows, and the district court of Maine has not done that.
The Courts have held that:
“We accept as true all well-pled facts set forth in complaint and draw all
Reasonable Inferences therein in the pleader’s favor.” (Artuso u. Vertex
Pharm Inc., 637 F.3d 1, 5 (1st Cir. 20ii). See also Johnson v. Rodruguez, 943
F.2d 104, 107 (1* Cir. 1991), Hughes v. Rowe, 449 U.S. 5, 10 n. 7 (1980),
instituto De Educacion Universal Corp. v. United States Dep't of Educ., 209
F.3d 18, 23 (1st Cir; 2000), etc; et. al.
The Petitioner’s complaint did not leave much room for inference as it was
well-evidenced by the case material in the docket of NEWDC-CR-16-20309, and
when it did leave room for inference, those reasonable inferences were supported by
punishable-by-perjury declaration pursuant to United States Code, and should have
been drawn in the pleader’s favor (Ref. “Complaint”, all; NEWDC-CR-16-20309, all).
It is therefore clear that the district court’s sua sporite dismissal of the Plaintiffs

023

well-evidenced complaint is in conflict with The First Circuit’s holding in Artuso v.
Vertex Pharm Inc., 637 F.3d 1, 5 (1st Cir. 2011), among other case citations (see
above).
The United States Supreme Court has held that:
“An in forma pauperis complaint may not be dismissed, however, simply
because the court finds the plaintiffs allegations unlikely.” Denton v.
Hernandez, 504 U.S. 25, 33 (1992).
It would be difficult to find the Petitioner’s allegations “unlikely” as they are
well-evidenced by the indisputable facts of the case as found in the PENDC-CR-1620309 docket, many of the case material having been included as exhibit to the
complaint in order to prove the Petitioner’s allegations. However, the district court
of Maine has done exactly that and thus the district court’s opinion conflicts with
The U.S. Supreme Court’s holding in Denton v. Hernandez, 504 U.S. 25, 33 (1992).
The United States Supreme Court has held that:
“a court may dismiss a claim as factually frivolous only if the facts alleged are
“clearly baseless””. Neitzke v. Williams, 490 U.S. 319, 324 (1989).
A comparison of the Petitioner’s complaint and exhibits to that complaint,
much of it taken directly from the PENDC-CR-16-20309 case material, shows that
the Plaintiffs complaint does not begin to approach “clearly baseless” and therefore
sua sponte dismissal of the Plaintiffs complaint by the district court for the stated
reason that it was “baseless” or “unsubstantiated” is both ridiculous and in conflict
with Neitzke v. Williams, 490 U.S. 319, 324 (1989).
Thus it is evident that the indigent and Pro Se Petitioner’s complaint was not
only improperly dismissed sua sponte by the district court of Maine but that

024

improper dismissal is in conflict with existing and in-use controlling case law meant
to protect Pro Se Litigants from such abuses, much of it coming directly from The
Honorable United States Supreme Court itself.
The Honorable Court should not abide the Unconstitutional, Unlawful, and
discriminatory treatment of an indigent and Pro Se litigant for any reason
whatsoever. The fact that this type of unlawful abuse is occurring should be a “red
flag” to The Honorable Court that the actions of the district court of Maine have
deteriorated to such an extent that a higher power’s intervention is necessary; thus
certiorari should be granted.
3. The fact that The Federal and Maine Courts, including defendant
Penobscot County District Attorney Marianne Lynch (Me.), as well as
a multitude of Federal Government and Maine State Government
Agencies, have completely ignored the Petitioner’s true and accurate
pleadings submitted to them stating that he has been tortured by
U.S. Government Personnel and is seeking their assistance for this
problem, and have subsequently failed to assist the Petitioner in any
way whatsoever, grievously infringes upon the Petitioner’s Human
Rights, Constitutional and Civil Rights, and Federal and
International Rights.
The fact that The Federal and Maine Courts, including defendant Penobscot
County District Attorney Marianne Lynch (Me.), as well as a multitude of Federal
Government and Maine State Government Agencies, have completely ignored the
Petitioner’s true and accurate pleadings submitted to them stating that he has been
tortured by U.S. Government Personnel and is seeking their assistance for this
problem, and have subsequently failed to assist the Petitioner in any way
whatsoever, grievously infringes upon the Petitioner’s Human Rights,
Constitutional and Civil Rights, and Federal and International Rights.

025

The Federal and Maine State Governments (collectively, “The Government”)
have failed to conduct any investigation, or aid the Petitioner in any way
whatsoever, regarding his true, accurate, and verifiable claims that he has been
tortured. This non-action by The Government is clearly in conflict with The
Petitioner’s basic Human Rights, his Constitutional Rights, and International Law.
The Federal and State Courts have continually and intentionally erred in
overlooking the fact that the Petitioner has been Tortured as described extensively
in his Court Documentation8. Again, this is a violation of The Geneva Conventions
against Torture as well as the Petitioner’s Constitutional Rights and basic Human
Rights.
Not all of the Petitioner’s court documentation in which he describes the fact
that he has been tortured is listed here, as that documentation is copious in
number, although the Petitioner will list some of the numerous Judicially
Noticeable places where the Petitioner has described the Fact that he has been
Tortured to The Courts, highlighting specifically The Federal Courts who have
jurisdiction over both Torture and matters of International Law.
The Petitioner has made the Maine State Supreme Court aware multiple
times of the Fact that he has been tortured9 10 n. The Petitioner has additionally
made The Maine State Superior Court aware of the Fact that he has been tortured12

8 Citations Below
9 PEN-18-458; Pages 41 - 49; Argument 7. Appendix, Pages 48 — 75.
10 PEN-19-514; Pages 38 — 39, Argument 7. Appendix, Pages 139 - 166; 243 — 258.
11 KEN-18-479; Pages 47 - 50, Argument 9. Appendix, Pages 25 - 163, 205 — 219, 271 - 299.
12 AUGSC-AP-18-69 removed to BANSC-AP-19-11; Pages 84 - 96, 104 - 111, 132 - 133. Appendix,
Pages 305 - 320, 458 - 460, 461 - 465, 466 - 48^g0 - 490, 493, 503.

1314 is 16 17 is The Petitioner has furthermore made some of The Maine District
Courts aware of the fact that he has been tortured19 29 21 22 23 24 25. Thus it is clear
that The Maine State Court(s) is well-informed as to the plight of the Petitioner and
yet they have offered him no assistance whatsoever, despite his constant pleas for
their help.
The Maine State Court(s) are therefore in violation of Constitutional, Federal
and International Law, as is explained below.
The Petitioner has made The Honorable United States Supreme Court aware
multiple times of the Fact that he has been Tortured26 27 28 29 30. The Petitioner has
additionally made the United States First Circuit Court of Appeals aware of the

13 AUGSC-AP-18-20 removed to BANSC-AP-19-12; Pages 136 - 149, 154 -163. Appendix, Pages
237 - 239, 245 - 247, 321 - 325.
14 AUGSC-CV-20-00222; Complaint, various additional filings, testimony.
15 AUGSC-CV-21-00014; Complaint, various additional filings, testimony.
16 BANSC-CV-20-00017; Complaint, Exhibits, various additional filings.
17 BANSC-CV-20-00055; Complaint, Exhibits, various additional filings.
18 SKOSC-CV-20-00006; Complaint, Exhibits, various additional filings.
19 PENDC-CR-16-20309; Various Filings, Testimony, Off-Record discussion with District Attorney
Marianne Lynch.
20 AUGDC-CR-18-20983; Various Filings, Testimony.
21AUGDC-CR-18-21183; Various Filings, Testimony.
22 WATDC-PA-18-00329; Various Filings, Testimony.
23 WATDC-SA-18-00377; Various Filings.
24 WATDC-SA-18-00383; Various Filings.
25 PENDC-PA-16-00103; Various Filings,- Testimony.
26 Petition for Writ of Certiorari 19-299.
27 Petition for Writ of Certiorari 19-448.
28 Petition for Writ of Certiorari 20-7827.
29 Petition for Writ of Certiorari 20-8474.
30 Petition for Writ of Certiorari 21-5493.

027

Fact that he has been Tortured31 32 33 34. The Petitioner has furthermore made The
United States District Court of Maine aware of the Fact that he has been Tortured35
36 37 38 39 40# Thus it is clear that The United States Federal Court(s) is wellinformed as to the plight of the Petitioner and yet they have offered him no
assistance whatsoever, despite his constant pleas for their help.
The United States Federal Court(s) are therefore in violation of
Constitutional, Federal and International Law, as is explained below.
It is all-too clear that The United States Court System, both Federal and
State, as well as The Department of Justice has erred in continually and
intentionally overlooking the highly-grievous Fact that the Petitioner has been
verifiably Tortured and in not responding to it or otherwise providing the Petitioner
with any assistance whatsoever and are therefore in violation of Constitutional,
Federal, and International Law.41

31 20-1610, Pages 3, 22; “Motion for Court-Appointed Attorney” 11/27/20 f 5; “Second Motion for
Court-Appointed Attorney” 12/08/20 *1*15, 8, 9; “Complaint”, Exhibit N; “Combined Petition for
Rehearing En Banc and Panel Rehearing” Pages i - ii, 2, 3 - 5, 5 - 15, 17.
32 20-1611, Pages 2, 7, 14s 27 - 29, 29 - 32, 32 — 33, 38 - 39; “Motion for Court-Appointed Attorney”
11/27/20 f 5; “Second Motion for Court-Appointed Attorney” 12/08/20 Iff 5, 8, 9; ‘‘Combined Petition
for Rehearing En Banc and Panel Rehearing” Pages i — ii, 2 — 10, 16 — 17; “Complaint”, ff 61 — 62,
Exhibits-AA, K.
33 20-1777, “Motion for Court-Appointed Attorney” 11/27/20 f 5; “Second Motion for Court-Appointed
Attorney” 12/08/20 ff 5, 8, 9; “Combined Petition for Rehearing En Banc and Panel Rehearing” Pages
i-iv, 5, 16- 18.
34 20-2166, Pages 2, 6, 15, 28, 44, 49 - 55; “Motion for Court-Appointed Attorney” 12/31/20” f f5, 8, 9;
Combined Petition for Rehearing En Banc and Panel Rehearing” pages v - vi, 2 — 3, 8 - 16, 16 - 17.
35 l:19-CV-00486-JAW; Complaint(s), Exhibits, Various Filings:
36 2:19-CV-00514-JAW; Complaint(s), Exhibits, Various Filings.
37 1:20-CV-00011-JAW; Complaint(s), Exhibits, Various Filings.
38 1:20-CV-00043-JAW; Complaint(s), Exhibits, Various* Filings.
39 1:20-CV-00137-LEW; Complaint, Exhibits.
40 1:20-CV-00149-LEW; Complaint, Exhibits.
41 Ref. "Eighth and Ninth Amendments to the United States Constitution"; "USC Chapter 113C - Torture" Appendix
D; "Geneva Conventions Against Torture and Other Cruet Inhuman or Degrading Treatment or Punishment",
Appendix E).

028

The Courts’ continual and intentional decision to overlook and ignore the fact
that the Petitioner has been tortured, as well as offer him no redress whatsoever,
not even a Reply, conflicts with The United States Constitution and Federal and
International Law.42
Furthermore, Torture is of exceptional importance as it is both a heinous
Federal and International Crime that is, in some cases, punishable by death and/or
International Sanctions and The Courts’ failure to address the issue, much
less offer the Petitioner a response of any kind, raises serious doubts as to The
United States’ commitment to honor its own Constitution and Laws or its agreedupon International Obligations.
The Petitioner has made The United States First Circuit Court of Appeals
aware of the Fact that he has been tortured in every Appeal he has written to them
(Ref. citations above), has made The Maine State Supreme Court aware of the Fact
that he has been tortured in every Appeal he has written to them (Ref. citations
above), and has made The Honorable United States Supreme Court aware of the
Fact that he has been tortured in every Appeal he has written to them (Ref. citations
above).
The Courts’ have been made aware that the Petitioner has made numerous
Federal and State Agencies aware of the fact that he has been Tortured (Ref.
citations above), and none of these numerous Federal and State Agencies, The

42 Ref. "Eighth.and.Ninth.Amendments to the United States Constitution"; "USC Chapter 113G-Torture" Appendix
D; "Geneva Conventions Against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment",
Appendix E).

029

t

tr

*

s

V

*u.-. $

✓

*

i //

1

l

■■

*■

r

*

:

i L.

/. :ri

i

iH

f

•H*'

*•

if1 *;

*

.hi 3 rfD'

.}

\v ?

,■

•>

• .•. i

i i-

*
•>

*

;
/

. t

>:

(

7*
t

S

s

v'

?

\ ■i-'l

^ i •> * '-t

.1 v‘r

:r

?

*

v

V

♦■• '

:

f

i

i

5

;

r--

f

■Z

'

r

;• t

1

'

?•-

->

f

/>

■

i

o

>

r, ••

f

1

S!

i

.('

*3

J

;

1

t

i

• "!

i - *.

i-.

-V
f-

*

’

J

t

f •"<

■

A-i

■

t

;

‘/■r

>

>

1

T

r-

i

V

s (

!' ‘

?

;

•J

V

r:

i

i- •

■;

1

i

-/.

’.r

•v.-'f

\
f

r

1- ■

;

I

::

•J

•r

C

*V-

i

a:.

4

\

1 5
I

:

'.J

!'.V5*?
.i: .->s ,!*.•

-■ ■*

r.

i

< i

t

irt ..-V’A •>'
i

V

'i

,!•

3

Federal Court System, or The Maine State Court System has complied with
Constitutional Law, U.S. Law, or International Law regarding the Petitioner’s true,
accurate, verifiable, and signed and notarized complaints of Torture.43
The Petitioner notes that Torture is both a Federal and International Crime
and that The Maine State Supreme Court continually attempts to evade the issue
by stating that it is “not within their jurisdiction” (Ref. Maine State Supreme Court
Cases cited above, and associated responses to Petitioner’s “Motions for
Reconsideration” and “Motions for Finding of Facts and Conclusions of Law”),
despite the fact that The State of Maine has both a duty and obligation to ensure
that its citizens Human Rights are protected and that their United States
Constitutional Rights are respected, upheld, and incorporated through the
Fourteenth Amendment to the United States Constitution.44
Setting aside The Maine State Courts’ refusal to abide by Federal Law and
The United States Constitution, The Federal Courts’ unquestionably have
Jurisdiction over Torture and Claims of Torture.45 The Federal Court(s) has offered
no response whatsoever as to why it continues to ignore the Fact that the Petitioner
has been Tortured and has refused to assist him in any way, despite the Faet that
Torture is both a Federal and International Crime and is unquestionably within
their jurisdiction.

43 Ref. "Eighth and Ninth Amendments.to the United States Constitution"; "USC Chapter 113C - Torture" Appendix
D; "Geneva Conventions Against Torture and Other Cruel, inhuman or Degrading Treatment or Punishment",
Appendix E).
44 Ref. Eighth, Ninth, and Fourteenth-Amendments to the United States-Constitution.
45 Ref. "USC Chapter 113C - Torture" Appendix D; "Geneva Conventions Against Torture and Other Cruel, Inhuman
or Degrading Treatment or Punishment", Appendix E).

030

>_

I

i

■J

*•

i

4

>

!

,-4

;

!
-5

a.*

!

'

I

i

>

•«

<k

i.i

i

;•

►

»

-• f;

y ■

;;

V

i

V

1

i

./

t

5-

ro

?

*

7

H>

H'

i,

!V.

,1

**

!

K

•* i

?

i

■V

;

■

t

j

•j

:/S

*

)-.

* 1

r

1

;

4

;

rr

i.-

?

*

v »*

i

;■

Tr-

r> -

\

r

■>

>

f.

;

.5

5

r

[

5

;.

?

}

;
?■

t

i

l

i

w.

;

< ■

.5

i

{

7' •

>

1
:“'vS

'*<

*«

■**

* *;

V

. *,

?

'tW
i

!

i>

-V

’ r\

? ;

K

i

<

Furthermore, the Petitioner has discussed the fact, within his court
documentation (Ref. citations above) that he has reported the fact that he has been
Tortured to every Government Agency that he could think of that could conceivably
be able to help him. These State and Government Agencies include, but are not
limited to, The United States Department of Justice, The Federal Bureau of
Investigation, The United States Attorney General, The United States Supreme
Court, The United States First Circuit Court of Appeals, The United States District
Court of Maine, The United States Chapter (Maine) of The American Red Cross,
The American Civil Liberties Union (ACLU), The Offices of Maine State Senators
Susan Collins and Angus King, The Maine State Supreme Court, The Maine State
Superior Court, The Maine Human Rights Commission, The Maine Office of the
Attorney General (Janet Mills), The Maine Office of the Governor (Paul LePage),
The Maine Government Oversight Committee, The Maine Office for Program
Evaluation and Government Accountability, The Knox County Sheriffs
Department, The Kennebec County Sheriffs Department, and The Penobscot
County Sheriffs Department.
None of the above State or Federal Government Agencies has offered
the Petitioner any help whatsoever, not even a response, and are therefore in
violation of both Federal Law 18 U.S.C. 2340, 2340(A), and 2340(B) and Part 1
Article 13 of The Geneva Conventions Against Torture.46

46 Ref. "Eighth and Ninth-Amendments to the United States-Constitution"; "USC Chapter 113G-Torture" Appendix
D; "Geneva Conventions Against Torture and Other Cruel, Inhuman or Degrading Treatment or Punishment",
Appendix E).

031

Part 1 Article 13 of The Geneva Conventions Against Torture states:
“Each State Party [including the United States], shall ensure that any
individual who alleges he has been subjected to torture in any territory under
its jurisdiction has the right to complain to, and to have his case promptly
and impartially examined by, its competent authorities. Steps shall be taken
to ensure that the complainant and witnesses are protected against all illtreatment or intimidation as a consequence of his complaint or any evidence
given.”
(Ref. “Geneva Conventions Against Torture Part 1, Article 13” - Appendix E).
The Petitioner has alleged he has been Tortured by Federal Government
Employees during his employment at CDI Aerospace (UTC Hamilton Sundstrand,
Windsor Locks, CT) during the years of 2012 - 2013 to all of the Federal and State
Government Courts and Agencies identified above (although that list is not allinclusive) as early as 11/01/16 (arguably 11/20/15 as this information was disclosed
to an “Officer David Trumbull” of the Penobscot County Sheriffs Office on that day),
and not a single one of those Government Agencies has acted to “ensure that any
individual who alleges he has been subjected to torture in any territory under its
jurisdiction has the right to complain to, and to have his case promptly and
impartially examined by, its competent authorities” nor have they acted to ensure
”Steps shall be taken to ensure that the complainant and witnesses are protected
against all ill-treatment or intimidation as a consequence of his complaint or any
evidence given”, as Article 13 of The Geneva Conventions Against Torture demands
they must (See above).
Therefore it is clear that the above Federal and State Government Agencies,
including The Federal Courts and Maine State Courts, are in International
Violation of The Geneva Conventions Against Torture, Part 1 Article 13, to which

032

The United States of America is bound to uphold as it is both a signed and principal
party to The Geneva Conventions against Torture as well as The United Nations,
who have adopted The Geneva Conventions against Torture.
Similarly, The above Federal and Maine State Government Agencies,
including The Federal and Maine State Courts, are in International Violation of
The Geneva Conventions Against Torture, Part 1 Article 14, to which The United
States of America is bound to uphold as it is both a signed and principal party to
The Geneva Conventions against Torture as well as The United Nations, who have
ratified through vote (The United States voting in the affirmative) and have thus
adopted The Geneva Conventions against Torture. Part 1 Article 14 of The Geneva
Conventions Against Torture states:
1. “Each State Party [including The United States of America] shall ensure in
its legal system that the victim of an act of torture obtains redress and has an
enforceable right to fair and adequate compensation, including the means for
as full rehabilitation as possible. In the event of the death of the victim as a
result of an act of torture, his dependents shall be entitled to compensation”.
2. “Nothing in this article shall affect any right of the victim or other persons
to compensation which may exist under national law”.
(Ref. “Geneva Conventions Against Torture Part 1 Article 14”, Appendix E).
At no time has any of the above-mentioned State or Government Agencies,
including The Maine State and Federal Court Systems, “ensure[d] in its legal
system that the victim of an act of torture obtains redress and has an enforceable
right to fair and adequate compensation, including the means for as full
rehabilitation as possible”, as Part 1 Article 14 of The Geneva Conventions Against
Torture demand they must, and these State and Government Entities are therefore
again undeniably in violation of International Law (Sec above).

033

Finally, The above-named State and Federal Courts and Government
Agencies may attempt to “wish away” the Fact that the Petitioner has been
Tortured, and may somehow wish to call his claims of torture unfounded, frivolous,
not rising to the level of Torture, etc., as he has thus-far provided only a handful of
details regarding the Torture he has endured, details that are fit to print, as he is
justifiably afraid to publicly disclose the more heinous aspects of the Torture he has
endured because he knows those heinous aspects to be classified as at least “Secret”
((<Top Secret” in the case of the Petitioner) and knows that “the means and methods
employed” to Torture him “are not commonly known amongst the General
Population”. This is not a case of simple water-boarding or being made to stand
naked in a pyramid (i.e. “Abu Ghraib”); the Torture the Petitioner has endured from
United States Government Personnel is much worse, and the injury he has suffered
has been lasting, persistent, and painful - and it shows no signs of abating.
However, somehow simply “wishing away” the Petitioner’s allegations of
Torture as unfounded, frivolous, or not rising to the level of Torture, is still in
violation of The Geneva Conventions Against Torture. Articles 12 states specifically
that:
“Each State Party [including the United States of America] shall ensure that
its competent authorities proceed to a prompt and impartial investigation,
wherever there is reasonable ground to believe that an act of torture has been
committed in any territory under its jurisdiction”.
(Ref. “Geneva Conventions Against Torture Part 1, Article 12”, Appendix E).
And Article 16 continues to state specifically that:
1. “Each State Party shall undertake to prevent in any territory under its
jurisdiction other acts of cruel, inhuman or degrading treatment or

034

punishment which do not amount to torture as defined in article I, when such
acts are committed by or at the instigation of or with the consent or
acquiescence of a public official or other person acting in an officiai capacity.
In particular, the obligations contained in articles 10, 11, 12 and 13
shati apply with the substitution for references to torture of references
to other forms of cruel, inhuman or degrading treatment or
punishment.”
2. “The provisions of this Convention are without prejudice to the provisions
of any other international instrument or national law which prohibits cruel,
inhuman or degrading treatment or punishment or which relates to
extradition or expulsion.”
(Ref. “Geneva Conventions Against Torture Part 1, Article 16”, Appendix E).
Therefore, The United States of America is obligated to “ensure that its
competent authorities proceed to a prompt and impartial investigation” under
Article 12, and even if The Courts and The Government Agencies listed above do
not believe the cruel, humiliating, and degrading treatment the Petitioner has been
subject to as described to them rises to the level of Torture, as Maine State Senator
Susan Collins did not, as she has called the Petitioner’s allegations of Torture
“Workplace harassment” (History will show that this was not a shining moment for
Ms. Collins), an investigation is still warranted under Article 16 of The Geneva
Conventions against Torture (See above).
Furthermore, The First Circuit has held that
“We accept as true all well-pled facts set forth in complaint and draw all
Reasonable Inferences therein in the pleader’s favor.” {Artuso v. Vertex
Pharm Inc., 637 F.3d 1, 5 (1st Cir. 2011).
And the Petitioner-notes that the United States Supreme Court has
substantially identical holdings as well, too numerous to cite here.
The Petitioner’s claims of Torture have been signed and sworn to under
Notary and Penalty of Perjury, and are well-pled in every single document The

035

Courts have received from the Petitioner which describes them, and therefore must
be accepted as True by The Courts (and This Court), pursuant to the holding in
Artuso v. Vertex Pharm Inc. Furthermore, The Courts must draw all reasonable
inferences therein in the pleader’s favor, again pursuant to Artuso v. Vertex Pharm
Inc.
Therefore, there is “reasonable ground” to believe the Petitioner has been
tortured (or at least subjected to Cruel, Inhuman, or Degrading Treatment) as he
has pled numerous times pursuant to Artuso v. Vertex Pharm Inc., and therefore an
investigation is demanded by The Geneva Conventions Against Torture Article 12
(See above).
Additionally, The United States Supreme Court (This Court) has held that
[The Pleadings of a Pro Se Party are subject to], “less stringent standards
than formal pleadings drafted by lawyers” (Haines u Kerner, 404 U.S. 519,
520)
The Petitioner is not sure of what exactly he has to do in order for The
Federal Court System to “properly receive the allegation that the Petitioner has been
tortured from the Petitioner” The Maine State Supreme Court has “properly
received the allegation that the Petitioner has been tortured” and has responded
incorrectly that it is not within their jurisdiction as described above; however, The
Federal Courts have not told the Petitioner exactly what is additionally required of
him, if anything at all, in order for The Federal Courts to take his allegations of
Torture seriously and in response, act accordingly.

036

Pursuant to Haines v. Kerrier and Artuso v. Vertex Pharm. Inc., the fact that
The Petitioner has alleged he has been tortured to The Maine State and Federal
Courts numerous times and in every Complaint, Appeal, and Motion for a CourtAppointed Attorney they have received from him (Ref. citations above) should easily
satisfy the Pro Se Petitioners burden of pleading the Fact that the Petitioner has
been Tortured to The Maine State and Federal Courts, since as a Pro Se Petitioner
the Petitioner has no idea how to accomplish this in any way other than the
numerous way(s) he already has (Ref. citations above).
The Pro Se Petitioner has been told by The Federal District Court of Maine
(citations above) that he cannot file a complaint for Torture because Torture is a
Federal Crime and the Petitioner is not a Federal Prosecutor. That may be true,
but that is not an excuse for The Federal Courts to completely ignore the Petitioner's
True, Accurate, and Verifiable pleadings that he has been tortured, as it runs afoul
of United States Law (Appendix D), International Law (Appendix E), and The
Constitution of The United States, as described above.
Thus the Petitioner’s Pleadings of Torture are proper and should be properly
recognized and addressed by The Federal Courts (and/or The Department of
Justice) due to their own holdings in Artuso v. Vertex Pharm Inc. and Haines v.
Kerner.
Therefore, whether or hot the above-named Federal Courts, Maine State
Courts, and Federal or Maine State Government Agencies, including This Court,
would like to “believe” the Petitioner has been Tortured, and they have-not told the

037

Petitioner that at all, in-fact they have all been suspiciously silent regarding
the matter of Torture at every mention of Torture and have never offered the
Petitioner a response of any kind whatsoever, the fact that the Petitioner has
been tortured has been extensively-pled and well-pled in his complaint(s) and
pleadings (Ref. citations above), and Those Courts, as well as This Court, must
therefore accept the fact that the Petitioner has been tortured to be True pursuant
to the holding in Artuso v. Vertex Pharm Inc., and an investigation is therefore
demanded pursuant to The Geneva Conventions against Torture, Part 1, Articles
12, 13, 14 and 16 (Ref. Appendix E), an investigation which has never been
conducted, to the best of the Petitioner’s knowledge, as not a single Government
Agency has ever attempted to contact the Petitioner or solicit additional
information in regards to the Torture he has suffered from United States
Government Personnel.
Thus, at present, almost six years’ have passed since the Petitioner first
disclosed he was tortured to a Government Agency and the above-named
Government Agencies and Courts are still not in compliance with United States
Law (Appendix D), The United States Constitution, or International Law,
specifically The Geneva Conventions Against Torture (Appendix E).
The Petitioner has asked The First Circuit Court of Appeals specifically and
in multiple briefs (citations above), to:
“The Appellant also asks The Honorable United States First Circuit Court of
Appeals to connect him with an Impartial Federal Government Agency such
that a Prompt and Impartial investigation into the Petitioner’s allegations of
Torture may be conducted pursuant The Geneva Conventions Against

038

Torture, to which The United States is bound by The United Nations to
comply with”.
(Ref. “First Circuit Court of Appeals Appellant’s Brief 20-1611”, pages 38-39)
which they have not done. They have not even offered the Petitioner a
reply.
The Petitioner has heard that- “Silence is Golden”, but finds that in this
ongoing situation of The Federal Courts’ and Federal Agencies refusing to respond
to the Fact that the Petitioner has been Tortured by United States Government
Personnel, that “The Silence is Deafening” and what it has to say isn’t very Good,
Lawful, Humane, or Encouraging.
The Federal and Maine State Court Systems, as well as The Government
Agencies listed above, are therefore in violation of The Geneva Conventions against
Torture, Articles 12, 13, 14, and 16 (Appendix E), United States Law (Appendix D),
and The United States Constitution.47
The Fact that the United States is all-too willing to ignore the Petitioner’s
claims of Torture despite the fact that he has been seeking redress for this
issue for the past six years is both troublesome and disconcerting and suggests
the fact that The United States is all talk and no action, as well as hypocritical,
when it comes to the issue of Torture and Human Rights Abuses. We Americans are
quick to condemn other countries for Human Rights Abuses, such as the newlyinstalled Taliban in Afghanistan, while simultaneously ignoring Torture

47 Ref. "Eighth and Ninth Amendments to the United Stygj^onstitution".

perpetrated upon our own citizens within our own country by our own
Government Personnel.
The fact that these Human Rights Abuses (Torture of the Petitioner) have
come from within The United States itself and have been perpetrated by United
States Government Personnel on a lawful and law-abiding United States Citizen
(the Petitioner) for no foreseeable or understandable reason whatsoever makes this
fact all the more disconcerting. This has been the Petitioner’s experience; it has not
been pleasant, and it has not been in accordance with United States Law,
Constitutional Law, nor International Law. Thus The Honorable United States
Supreme Court cannot afford to cast a blind eye to this issue and thus Certiorari
should be granted and the indigent and Pro Se Petitioner should be put in contact
with an Agency that can and will assist him with the issue of the Torture he has
suffered, at the very least.
CONCLUSION
The Petition for Certiorari should be granted, and the Plaintiff should be put
in contact with an entity with the proper credentials to assist him with the Torture
he has positively endured and the lasting, persistent, and painful injuries of
unknown severity that have resulted from that Torture..
Respectfully,

Itt

QJ2C.A)
i 09&6/21

JGlenPjourde
\
455 Gnapman Road ^
Newburgh, Maine 04444
207.659.2595

040

